Semiannual Report To
The Congress




April 1, 2008 – September 30, 2008
OIG-CA-09-002




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                        HIGHLIGHTS
During this semiannual reporting period, the Office of Audit issued 21 reports. Work by the
Office of Investigations resulted in 13 arrests, 1 case accepted for prosecution, 3 convictions by
plea agreement, 2 federal indictments, and 1 federal information. Investigative activities also
resulted in $382,052 in court-ordered fines, restitution, and recoveries, as well as 15 personnel
or administrative actions. Some of our significant results for this period are described below.

•   We completed a mandated material loss review of the failure in September 2007 of NetBank,
    FSB, of Alpharetta, Georgia. The failure resulted in an estimated $108 million loss to the
    Deposit Insurance Fund. We found that unfavorable economic conditions, combined with
    ineffective business strategies and controls, high expenses, and large losses related to a
    commercial lease portfolio and NetBank’s mortgage banking operations, were significant
    causes of NetBank’s failure. With respect to supervision of the thrift, we reported that the
    Office of Thrift Supervision (OTS) conducted timely and regular examinations of NetBank and
    provided oversight through its off-site monitoring. However, we noted that improvements
    are needed in (1) the use of internal OTS assessments, (2) the timing of formal enforcement
    actions, and (3) OTS’s internal reviews of thrift failures. OTS agreed with our overall review
    results and recommendations.

    At the end of this semiannual reporting period, we had an unprecedented 5 material loss
    reviews of failed financial institutions in progress, of which 3 are national banks that were
    supervised by the Office of the Comptroller of the Currency and 2 are thrifts that were
    supervised by OTS, including IndyMac Bank with an estimated loss of nearly $9 billion.

•   Based on an audit performed by KPMG under our supervision and work by the Treasury
    Inspector General for Tax Administration, we determined that Treasury’s information security
    program was in place and was generally consistent with the Federal Information Security
    Management Act of 2002. However, KPMG’s audit indicated that additional steps are
    required to ensure that Treasury’s information security risk management program and
    practices fully comply with applicable National Institute of Standards and Technology
    standards and guidelines and the Act’s requirements. The Treasury Inspector General for Tax
    Administration reported that the Internal Revenue Service had made significant
    improvements, noting that the most significant area of concern was the Internal Revenue
    Service’s implementation of configuration management standards.

•   A joint investigation resulted in the indictment of 13 individuals in an alleged scheme to steal
    Treasury checks from the mail and cash the checks using false identification documents.
    According to the 53-count indictment, from April 2006 to May 2007, a U.S. Postal Service
    employee stole Treasury checks from the post office where he worked in Baltimore,
    Maryland, and provided the stolen mail to other co-conspirators. The defendants are alleged
    to have fraudulently obtained over $100,000.

•   Since March 2008, joint investigations by the Treasury Office of Inspector General,
    Immigration and Customs Enforcement, and the Bureau of Engraving and Printing resulted in
    three seizures of mutilated currency with a total estimated value of more than $6 million,
    due to suspected violations of federal law.

•   A joint investigation resulted in the arrest and conviction of Daniel Money, a Treasury
    employee, on one count of bribery. Money agreed to provide bribe payments totaling
    $55,000 to an officer of the U.S. Tax Court in exchange for the public official’s awarding of
    two contracts to a company owned by Money. As part of the related plea agreement, Money
    also acknowledged that he stole 600 gallons of diesel fuel that was Treasury property.
A MESSAGE FROM THE INSPECTOR GENERAL

I am pleased to present the Department of the Treasury Office of Inspector General
Semiannual Report summarizing activities for the 6-month period from April 1,
2008, through September 30, 2008.

I was sworn in as the 6th Treasury Inspector General on August 11, 2008. In the
short time I have been here, I have been impressed with the talent and dedication of
the employees who work within the Treasury Department, including my own office.
I want to acknowledge the fine work of my Deputy Inspector General, Dennis
Schindel, who was the acting Inspector General from April 2007 until my recent
swearing in. The Treasury Office of Inspector General has faced some significant
challenges over the past year and under Mr. Schindel’s leadership the Office has
continued to perform in an exemplary manner.

The events of the past few months have presented some very significant challenges
for the leaders of this administration as they try to stabilize the turmoil in our
financial markets and the impact on our overall economy. The Secretary of the
Treasury has been at the forefront of those efforts. Now, with the passage of the
Emergency Economic Stabilization Act of 2008 Treasury has taken on an enormous
new challenge of trying to quickly and effectively execute this $700 billion rescue
plan. As Congress debated and reshaped this legislation, one theme that
consistently came out was the need to have strong oversight of Treasury’s
implementation of the Act. The Act establishes a Special Inspector General for this
program. It will be important to get that office up and running as quickly as
possible. In the event that a Special Inspector General is not established quickly, the
Secretary has asked that we assist in providing oversight. We are working with his
staff to ensure that we can provide the degree of oversight needed to evaluate
whether the program is executed effectively and in accordance with the law.

This will be a significant challenge for us with our growing material loss review
workload. This work is mandated by the Federal Deposit Insurance Act and we
currently have an unprecedented five reviews ongoing at the present time. We have
redirected most of our audit resources to the review work. However, I consider
oversight of the Act the highest priority and we will work with the Secretary and
his team to provide the proper balance of that workload.




Eric M. Thorson
Inspector General
This Page Intentionally Left Blank
                                            TABLE OF CONTENTS

Highlights

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                         1

        About Our Office ...........................................................................................       1
        About Treasury .............................................................................................       2

Treasury Management and Performance Challenges ...........................................                                 5

        Introduction ..................................................................................................    5
        Management and Performance Challenges ........................................................                     5

Significant Audits and Evaluations ...................................................................                    10

        Financial Management ....................................................................................         10
        Information Technology ..................................................................................         12
        Programs and Operations ................................................................................          14

Significant Investigations ................................................................................               24

Other OIG Accomplishments and Activity .........................................................                          30

Statistical Summary .......................................................................................               34

        Summary of OIG Activity ................................................................................          34
        Significant Unimplemented Recommendations ...................................................                     35
        Summary of Instances Where Information Was Refused......................................                          36
        Listing of Audit and Evaluation Reports Issued...................................................                 36
        Audit Reports Issued With Questioned Costs .....................................................                  38
        Audit Reports Issued With Recommendations that
           Funds Be Put to Better Use .........................................................................           38
        Previously Issued Audit Reports Pending Management Decisions
           (over Six Months) ......................................................................................       38
        Significant Revised Management Decisions .......................................................                  38
        Significant Disagreed Management Decisions ....................................................                   38
        References to the Inspector General Act ..........................................................                39

Abbreviations ................................................................................................            40
This Page Intentionally Left Blank
                            OVERVIEW OF OIG AND TREASURY

About Our Office
The Department of the Treasury’s Office of Inspector General (OIG) was established pursuant
to the 1988 amendment to the Inspector General Act of 1978. 1 OIG is headed by an Inspector
General who is appointed by the President of the United States, with the advice and consent
of the United States Senate. Serving with the Inspector General in the immediate office is a
Deputy Inspector General. OIG performs independent and objective reviews of Treasury
programs and operations, except for those of the Internal Revenue Service (IRS), and keeps
the Secretary of the Treasury and Congress fully informed of problems, deficiencies, and the
need for corrective action. The Treasury Inspector General for Tax Administration (TIGTA)
performs audit and investigative oversight related to IRS.

OIG is organized into four divisions: (1) Office of Audit, (2) Office of Investigations, (3) Office
of Counsel, and (4) Office of Management.

          The Office of Audit performs and supervises audits, attestation engagements, and
          evaluations. The Assistant Inspector General for Audit has two deputies. One deputy is
          primarily responsible for performance audits, and the other deputy is primarily
          responsible for financial management and information technology audits. Office of
          Audit staff are located in Washington, DC, and Boston, Massachusetts.

          The Office of Investigations performs investigations and conducts proactive initiatives
          aimed at detecting and preventing fraud, waste, and abuse in Treasury programs and
          operations. The office also manages the Treasury OIG Hotline System to facilitate
          reporting of allegations involving programs and activities under the auspices of the
          Department. The Assistant Inspector General for Investigations is responsible for all
          investigations relating to the Department’s programs and operations and integrity
          oversight reviews of select Treasury bureaus. The Office of Investigations is located in
          Washington, DC.

          The Office of Counsel (1) processes all Freedom of Information Act/Privacy Act
          requests and administrative appeals on behalf of OIG; (2) processes all discovery
          requests for information held by OIG; (3) represents OIG in administrative Equal
          Employment Opportunity and Merit Systems Protection Board proceedings;
          (4) conducts ethics training and provides ethics advice to OIG employees and ensures
          OIG compliance with financial disclosure requirements; (5) reviews proposed legislation
          and regulations relating to the Department; (6) reviews and issues administrative
          subpoenas; (7) reviews and responds to all Giglio requests for information about
          Treasury personnel who may testify in trials; and (8) provides advice to all components
          within the OIG on procurement, personnel, and other management matters and on
          pending OIG audits and investigations.

          The Office of Management provides a range of services designed to maintain the OIG
          administrative infrastructure. These services include asset management; budget
          formulation and execution; financial management; information technology; and

1
    5 U.S.C. app. 3.


                Treasury Office of Inspector General Semiannual Report – September 2008               1
                       OVERVIEW OF OIG AND TREASURY

     officewide policy preparation, planning, emergency preparedness, and reporting for
     OIG. The Assistant Inspector General for Management is in charge of these functions.

     As of September 30, 2008, OIG had 107 full-time staff. OIG’s fiscal year 2008
     appropriation was $18.5 million.


About Treasury
     Treasury’s mission is to serve the American people and strengthen national security by
     managing the U.S. Government’s finances effectively; promoting economic growth and
     stability; and ensuring the safety, soundness, and security of U.S. and international
     financial systems. Organized into bureaus and offices, Treasury encompasses a wide
     range of programs and operations. Currently, Treasury has approximately 107,900 full-
     time equivalent staff. Of those, IRS employs about 91,700 while the other Treasury
     bureaus and offices employ about 16,200.

Treasury Bureaus

     The Alcohol and Tobacco Tax and Trade Bureau (TTB) is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     The Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     The Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     The Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     The Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.

     The Internal Revenue Service (IRS) is the nation's tax collection agency and administers
     the Internal Revenue Code.

     The U.S. Mint designs and manufactures domestic, bullion, and foreign coins as well as
     commemorative medals and other numismatic items. The Mint also distributes U.S.
     coins to the Federal Reserve Banks, and maintains physical custody of and protects the
     nation's gold and silver assets.



           Treasury Office of Inspector General Semiannual Report – September 2008            2
                        OVERVIEW OF OIG AND TREASURY


      The Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      The Office of Thrift Supervision (OTS) regulates all federal and many state-chartered
      thrift institutions, which include savings banks and savings and loan associations.

Treasury Offices

      The Departmental Offices (DO) formulates policy and manages Treasury operations.
      Descriptions of certain component offices, relevant to this semiannual reporting period,
      appear below.

      The Office of Terrorism and Financial Intelligence (TFI) uses Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats. This Office is also responsible for integrating FinCEN, the
      Office of Foreign Assets Control (OFAC), and the Treasury Executive Office for Asset
      Forfeiture.

         •   OFAC administers and enforces economic and trade sanctions based on U.S.
             foreign policy and national security goals against targeted foreign countries,
             terrorists, international narcotics traffickers, and those engaged in activities
             related to the proliferation of weapons of mass destruction.

         •   The Treasury Executive Office for Asset Forfeiture administers the Treasury
             Forfeiture Fund, the receipt account for the deposit of nontax forfeitures made
             by IRS Criminal Investigation and the Department of Homeland Security.

      The office is headed by an Under Secretary and includes two major components: the
      Office of Terrorist Financing and Financial Crimes and the Office of Intelligence and
      Analysis. An Assistant Secretary oversees each of these offices.

         •   The Office of Terrorist Financing and Financial Crimes works across all elements
             of the national security community – including the law enforcement, regulatory,
             policy, diplomatic and intelligence communities – and with the private sector
             and foreign governments to identify and address the threats presented by all
             forms of illicit finance to the international financial system.

         •   The Office of Intelligence and Analysis is responsible for the receipt, analysis,
             collation, and dissemination of foreign intelligence and foreign
             counterintelligence information related to the operation and responsibilities of
             Treasury. The Office of Intelligence and Analysis is a member of the U.S.
             Intelligence Community.




             Treasury Office of Inspector General Semiannual Report – September 2008             3
                  OVERVIEW OF OIG AND TREASURY

The Office of Management is responsible for Treasury’s internal management and
policy in the areas of budget, planning, human resources, information and technology
management, financial management and accounting, procurement, and administrative
services to DO. It is headed by the Assistant Secretary for Management and Chief
Financial Officer. The Office of DC Pensions, which is within the Office of
Management, makes federal benefit payments associated with District of Columbia
retirement programs for police officers, firefighters, teachers, and judges.

The Office of International Affairs advises on and assists in formulating and executing
U.S. international economic and financial policy. Its responsibilities include developing
policies and guidance in the areas of international financial, economic, monetary, trade,
investment, bilateral aid, environment, debt, development, and energy programs,
including U.S. participation in international financial institutions.

The Office of Tax Policy (OTP) develops and implements tax policies and programs;
reviews regulations and rulings to administer the Internal Revenue Code, negotiates tax
treaties, provides economic and legal policy analysis for domestic and international tax
policy decisions. It also provides estimates for the President's budget, fiscal policy
decisions, and cash management decisions.

The Exchange Stabilization Fund is used to purchase or sell foreign currencies, hold
U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
foreign governments.

The Community Development Financial Institutions Fund expands the availability of
credit, investment capital, and financial services in distressed urban and rural
communities.

The Federal Financing Bank provides federal and federally assisted borrowing, primarily
to finance direct agency activities such as construction of federal buildings by the
General Services Administration and meeting the financing requirements of the U.S.
Postal Service.

                         (End of Overview of OIG and Treasury)




      Treasury Office of Inspector General Semiannual Report – September 2008           4
         TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

Introduction
In accordance with the Reports Consolidation Act of 2000, the Inspector General annually
provides the Secretary of the Treasury with his perspective on the most serious management
and performance challenges facing the Department. The Secretary includes these challenges in
the Department’s annual performance and accountability report.

In a memorandum to Secretary Paulson dated October 30, 2008, Treasury Inspector General
Thorson reported two new challenges:

•   Management of Treasury’s New Authorities Related to Distressed Financial Markets
•   Regulation of National Banks and Thrifts

Both of these challenges relate to the crises that began in the subprime mortgage market and
spread more broadly into the U.S. and global financial markets.

The Inspector General also continued to report four challenges from last year:

•   Corporate Management
•   Management of Capital Investments
•   Information Security
•   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act (BSA) Enforcement

We removed one previously reported challenge, Linking Resources to Results, based on the
progress the Department has made in implementing managerial cost accounting in its
operations.

As we have pointed out in the past, management and performance challenges do not always
represent a deficiency in management or performance. Instead, they can represent inherent
risks associated with Treasury’s mission, organizational structure, or the environment in which
it operates. In this regard, the Department can and should take steps to mitigate these
challenges but may not be able to entirely eliminate them. As such, they require ongoing
management attention.


Management and Performance Challenges

    Management of Treasury’s New Authorities Related to Distressed Financial Markets Last
    year we reported as a matter of increasing concern the deterioration of the real estate
    market and its impact on the credit markets. With worsening conditions over the past year
    and the impact the subprime mortgage situation has had on the broader financial markets,
    we elevated this concern to the most serious management and performance challenge
    facing the Department.

    Treasury, along with the Federal Reserve and the Federal Housing Finance Agency (FHFA),
    has been dealing with multiple financial crises requiring unprecedented actions through the
    latter half of fiscal year 2008. In July 2008, Congress passed the Housing and Economic


             Treasury Office of Inspector General Semiannual Report – September 2008           5
     TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

Recovery Act which gave Treasury broad new authorities to address the distressed
financial condition of Fannie Mae and Freddie Mac. While the hope at the time was that
Treasury would not need to exercise those authorities, less than 6 weeks later, FHFA put
the two mortgage giants into conservatorship and Treasury agreed to purchase senior
preferred stock in the companies, established a new secured line of credit available to the
companies, and initiated a temporary program to purchase new mortgage-backed securities
issued by the companies.

As the turmoil in the financial markets increased, Treasury and the Federal Reserve took a
number of additional unprecedented actions including the rescue of Bear Stearns and
American International Group (AIG). It became evident that a more systemic,
comprehensive plan was needed to stabilize the financial markets. Treasury sought and
obtained additional authorities through passage of the Emergency Economic Stabilization
Act (EESA), which gave the Treasury Secretary $700 billion in authority to, among other
things: (1) purchase capital in qualifying U.S. controlled financial institutions; and (2) buy,
maintain, and sell toxic mortgage-related assets from financial institutions. These
authorities are intended to bolster credit availability and address other serious problems in
the U.S. and world financial markets.

As of this writing, the Department has aggressively moved forward to make capital
infusions through the purchase of senior preferred stock in nine large banks in an effort to
loosen up the credit market. A number of other banks have subsequently sought to
participate in the Capital Purchase Program. The Department is also implementing the
mechanisms to carry out its other authorities and responsibilities for the Troubled Assets
Relief Program (TARP). It plans to rely extensively on the private sector, initially with a
small cadre of Treasury staff to exercise managerial control over TARP. With the hundreds
of billions of dollars involved, the need to move quickly, and with so much of the program
to be managed by financial agents and contractors, the risk is high that Treasury objectives
will not be achieved or taxpayer dollars will be wasted. Accordingly, Treasury needs to
ensure strong controls are in place and that its managerial oversight is effective.

Additionally, the Act provides for the appointment of a Special Inspector General to provide
oversight of this program. It also directs the U.S. Government Accountability Office (GAO)
to conduct ongoing monitoring and report on the program every 60 days. Having said that,
it is important to keep in mind that the presence of a Special Inspector General and the
work by GAO are not a substitute for sound internal controls and appropriate management
stewardship of this critical program.

Also, while the structure and execution of the EESA is still unfolding, it appears that
Treasury will be relying to some extent on OCC and OTS to both evaluate their supervised
institutions for participation in TARP and to monitor their compliance with the requirements
for participation and the use of the capital that Treasury provides, including requirements
related to limits on executive compensation. If this is to be effective, there will need to be
close coordination between the Treasury team managing implementation of EESA, OCC,
and OTS (as well as the other federal banking agencies).




          Treasury Office of Inspector General Semiannual Report – September 2008                 6
     TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

Going forward sound administration of the significant taxpayer dollars committed to this
rescue effort will clearly be Treasury’s most significant management challenge.
Furthermore, given the rapidly changing conditions in the financial markets and the coming
change in administrations, the importance of establishing a sustainable leadership team as
quickly as possible to manage this program cannot be overstated.

Regulation of National Banks and Thrifts Since September 2007, nine Treasury-regulated
financial institutions failed with estimated losses to the deposit insurance fund exceeding
$10 billion. Predictions are that many more will fail before the economy improves. This is
in sharp contrast to the relatively few and much smaller Treasury-regulated financial
institutions that failed during the previous 5 years.

While there are many factors that have contributed to the current turmoil in the financial
markets, Treasury’s regulators, OCC and OTS, did not identify early or force timely
correction of the unsafe and unsound practices by institutions under their supervision. The
irresponsible lending practices by many institutions that contributed to the current crisis
are now well recognized—including degradation of underwriting standards, loan decisions
based on factors other than the borrowers’ ability to repay, and with the ready availability
of investor financing, a mentality of “originate to sell” instead of the more prudent
“originate to hold” permeated the industry. At the same time, financial institutions engaged
in other high risk activities including high asset concentrations in areas such as commercial
real estate, and over-reliance on unpredictable brokered deposits to fund rapid growth.

The banking industry will continue to be under pressure over the next several years. For
example, OCC, OTS, and the other federal banking regulators recently reported that 2007
data for Shared National Credits (loan commitments of $20 million or more that are shared
by three or more federally supervised institutions) showed a large increase in volume
during the year, with shared credits now totaling $2.8 trillion (a 22.6 percent increase over
2006). The regulators also reported a significant deterioration in quality of these credits. It
has also been reported that the next substantial stress to financial markets will come from
troubled credit card debt and auto loans, and this may significantly impact those financial
institutions that previously had limited exposure to the subprime mortgage crises.

Our office is mandated to look into Treasury-regulated bank failures that result in material
losses to the deposit insurance fund. In this regard, during the last 6 months, we
completed one review of the NetBank failure, which is discussed on page 14, and are
currently engaged in five. These reviews are useful in identifying the causes for failures
and assessing the supervision exercised over a particular failed institution. It should be
noted that OCC and OTS have been responsive to our recommendations for improving
supervision. However, these reviews do not address supervisory effectiveness overall. It is
therefore essential that OCC and OTS take a critical look at their respective (and collective)
supervisory processes to identify why those processes did not prevent or better mitigate
the unsafe and unsound practices that led to the current crisis and what can be done to
better protect the financial health of the banking industry going forward.

Recognizing that the focus of EESA is on the current crisis, another consideration is the
need for Treasury to identify, monitor, and manage emerging domestic and global systemic



          Treasury Office of Inspector General Semiannual Report – September 2008             7
     TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

economic risks. It should be noted that these emerging risks may go beyond the current
U.S. regulatory structure. Treasury, in concert with its regulatory partners, needs to
diligently monitor regulated as well as unregulated products and markets for new systemic
risks that may require action.

Corporate Management Starting in 2004, we identified corporate management as an
overarching management challenge. In short, Treasury needs to provide effective corporate
leadership in order to improve performance as a whole. Inherent in this is the need for clear
lines of accountability between corporate, bureau, and program office management;
enterprise solutions for core business activities; and effective oversight of capital
investments and information security. With nine bureaus and a number of program offices,
Treasury is a highly decentralized organization. As we reported last year, the Department
has made progress in building up a sustainable corporate control structure. The challenge
continues to be maintaining emphasis on corporate governance, particularly as the
Department develops the infrastructure to carry out its vastly expanded role in addressing
the current economic crisis and as key management officials turnover with the change of
administration.

Management of Capital Investments Managing large capital investments, particularly
information technology (IT) investments, is a difficult challenge facing any organization
whether in the public or private sector. In prior years we have reported on a number of
capital investment projects that either failed or had serious problems. In light of this, with
hundreds of millions of procurement dollars at risk, Treasury needs to exercise continuous
vigilance in this area as it proceeds with its: (1) transition to a new telecommunications
contract (TNet) under the General Services Administration’s Networx program, a transition
that has already experienced delays; (2) implementation of enhanced information security
requirements; (3) the anticipated renovation of the Treasury Annex; and (4) other large
capital investments.

During the last year, the Department reinstituted a governance board consisting of senior
management officials to provide executive decision-making on, and oversight of, IT
investment planning and management and to ensure compliance with the related statutory
and regulatory requirements.

Information Security While improvements have been made, by its very nature information
security will continue to be a management challenge to the Department. Our Fiscal Year
2008 audit addressing the objectives of the Federal Information Security Management Act
of 2002 (FISMA) and Office of Management and Budget (OMB) requirements found that
Treasury’s non-IRS bureaus made progress in improving information security controls and
practices.

Notably, during the past year Treasury strengthened its inventory reporting and Plan of
Action and Milestones (POA&M) processes for tracking and correcting security
weaknesses. However, our audit found that (1) minimum security control baselines were
not sufficiently documented, tested, and/or implemented as required; (2) computer security
incidents were not consistently reported timely or correctly categorized; (3) common
security configuration baselines were not fully compliant; and (4) federal desktop core



          Treasury Office of Inspector General Semiannual Report – September 2008            8
     TREASURY MANAGEMENT AND PERFORMANCE CHALLENGES

configurations were not fully implemented. Treasury management has indicated its
commitment to address these issues. It should be noted, however, that the annual FISMA
review is not designed to detect all information security vulnerabilities.

Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement As reported
in previous years, Treasury faces unique challenges in carrying out its responsibilities under
the Bank Secrecy Act (BSA) and USA Patriot Act to prevent and detect money laundering
and terrorist financing. While FinCEN is the Treasury bureau responsible for administering
BSA, a large number of federal and State entities participate in efforts to ensure
compliance with BSA. These entities include the five federal banking regulators, the IRS,
the Securities and Exchange Commission, the Department of Justice, and State regulators.
Many of these entities also participate in efforts to ensure compliance with U.S. foreign
sanction programs administered by OFAC.

The dynamics and challenges for Treasury of coordinating the efforts of multiple entities,
many external to Treasury, are difficult. In this regard, FinCEN and OFAC entered into
memoranda of understanding (MOU) with many federal and State regulators in an attempt
to build a consistent and effective process. However, these MOUs are non-binding (and
without penalty) and their overall effectiveness have not been independently assessed.

Furthermore, the Patriot Act has increased the types of financial institutions required to file
BSA reports. In fiscal year 2007, nearly 18 million BSA reports were filed. Although these
reports are critical to law enforcement, past audits have shown that many contain
incomplete or erroneous data. Additionally, past audits have also shown that examination
coverage by regulators of financial institution compliance with BSA has been limited.

Given the criticality of this management challenge to the Department’s mission, we
continue to consider BSA and OFAC programs as inherently high-risk. Further adding to
this risk in the current environment is the risk that financial regulators and examiners may
lessen their attention on BSA compliance as they address safety and soundness concerns.
It should also be understood that due to resource constraints and mandatory requirements,
particularly with respect to failed banks, we do not anticipate providing significant audit
coverage to this challenge area during fiscal year 2009.

                (End of Treasury Management and Performance Challenges)




          Treasury Office of Inspector General Semiannual Report – September 2008             9
                       S IGNIFICANT A UDITS AND E VALUATIONS

Financial Management

Financial Audits

The Chief Financial Officers Act (CFO Act), as amended by the Government Management Reform
Act of 1994 (GMRA), requires annual financial statement audits of Treasury and OMB-designated
entities. In this regard, OMB has designated IRS for annual financial statement audits. The
financial statements of certain other Treasury component entities are audited pursuant to other
requirements or due to their materiality to Treasury’s consolidated financial statements. The
following table shows audit results for fiscal years 2007 and 2006.


   Treasury-audited financial statements and related audits
                                        Fiscal year 2007 audit results         Fiscal year 2006 audit results
                                                             Other                                 Other
                                                Material     significant               Material    significant
   Entity                            Opinion    weakness     deficiencies    Opinion   weakness    deficiencies
   GMRA/CFO Act requirements
     Department of the Treasury            UQ              1             2        UQ           1                2
     Internal Revenue Service (A)          UQ              4             1        UQ           4                1
   Other required audits
     Bureau of Engraving and
                                           UQ              0             0        UQ           0                1
     Printing
     Community Development
                                             D             0             2         D           0                2
     Financial Institutions Fund
     Office of DC Pensions                 UQ              0             0        UQ           0                0
     Exchange Stabilization Fund           UQ              0             0        UQ           0                0
     Federal Financing Bank                UQ              0             0        UQ           0                0
     Office of the Comptroller of
                                           UQ              0             1        UQ           0                1
     the Currency
     Office of Thrift Supervision          UQ              0             0        UQ           0                0
     Treasury Forfeiture Fund              UQ              0             2        UQ           0                1
     Mint
       Financial statements                UQ              1             0        UQ           0                1
       Custodial gold and silver
                                           UQ              0             0        UQ           0                0
       reserves
   Other audited accounts that are material to Treasury financial statements
     Bureau of the Public Debt
       Schedule of Federal Debt
                                           UQ              0             0        UQ           0                0
       (A)
       Government trust funds              UQ              0             0        UQ           0                0
     Financial Management Service
       Treasury-managed accounts           UQ              0             0        UQ           0                0
       Operating cash of the
                                           UQ              0             1        UQ           0                1
       federal government
   Management-initiated
     FinCEN                                UQ              1             0        UQ           0                0
   UQ - Unqualified opinion
   D   - Disclaimer of opinion
   (A) - Audited by the GAO




                Treasury Office of Inspector General Semiannual Report – September 2008                         10
                        S IGNIFICANT A UDITS AND E VALUATIONS


Audits of the fiscal year 2008 financial statements or schedules of the Department and
component reporting entities were in progress at the end of this semiannual reporting period.

The following instances of noncompliance with the Federal Financial Management Improvement
Act of 1996 were reported in connection with the audit of the Department’s fiscal year 2007
consolidated financial statements. All instances relate to IRS. The current status of these
noncompliances, including progress in implementing remediation plans, will be evaluated as part
of the audit of Treasury’s fiscal year 2008 financial statements.

                                                                                       Fiscal year
                                                                                                     Type of
Entity   Condition                                                                     first
                                                                                                     noncompliance
                                                                                       reported
         Financial management systems do not provide timely and reliable
         information for financial reporting and preparation of financial
         statements. IRS had to rely extensively on resource-intensive                               Federal financial
         compensating procedures to generate reliable financial statements. IRS                      management
IRS                                                                                    1997
         also lacks a subsidiary ledger for its unpaid assessments and lacks an                      systems
         effective audit trail from its general ledger back to subsidiary detailed                   requirements
         records and transaction source documents for material tax-related
         balances such as tax revenues, tax receivables, and tax refunds.
                                                                                                     Federal financial
         Deficiencies were identified in information security controls, resulting in                 management
IRS      increased risk of unauthorized individuals accessing, altering, or abusing    1997          systems
         proprietary IRS programs and electronic data and taxpayer information.                      requirements
         Material weaknesses related to controls over unpaid tax assessments,                        Federal accounting
IRS                                                                                    1997          standards
         tax revenue, and refunds.
         Financial management system cannot produce managerial cost
         information consistent with the requirements of Statement of Federal                        Federal accounting
IRS                                                                                    1998
         Financial Accounting Standards No. 4, Managerial Cost Accounting                            standards
         Standards.
         IRS lacks a subsidiary ledger for its unpaid assessments and lacks an
         effective audit trail from its general ledger back to subsidiary detailed                   Standard general
IRS                                                                                    1997
         records and transaction source documents for material tax-related                           ledger
         balances such as tax revenues, tax receivables, and tax refunds.


Attestation Engagements

Two attestation engagements related to BPD controls over processing transactions for other
federal agencies were completed in support of the audit of Treasury’s fiscal year 2008
consolidated financial statements. These engagements also support the financial statement audits
of certain other federal agencies. The engagements are described below.

An independent public accountant (IPA), under our supervision, examined the accounting
processing and general computer controls related to financial management services provided to
various federal agencies by BPD’s Administrative Resource Center. The IPA found that (1) BPD’s
description of controls for these activities fairly presented, in all material respects, the controls
that had been placed in operation as of June 30, 2008; (2) the controls were suitably designed;
and (3) the controls tested by the IPA were effective during the period July 1, 2007, to



                 Treasury Office of Inspector General Semiannual Report – September 2008                             11
                    S IGNIFICANT A UDITS AND E VALUATIONS

June 30, 2008. The IPA noted no instances of reportable noncompliance with laws and
regulations tested. (OIG-08-042)
The IPA also examined the general computer and investment/redemption processing controls
related to BPD’s transactions processing of investment accounts for various federal agencies.
BPD’s Federal Investments Branch maintained these accounts. The IPA found that (1) BPD’s
description of these controls fairly presented, in all material respects, the controls that had been
placed in operation as of July 31, 2008; (2) the controls were suitably designed; and (3) the
controls tested by the IPA were effective during the period August 1, 2007, to July 31, 2008.
The IPA noted no instances of reportable noncompliance with the laws and regulations tested.
(OIG-08-045)




Information Technology

Fiscal Year 2008 Federal Information Security Management Act Performance Audit

We determined that Treasury’s    FISMA requires Inspector Generals to perform an annual,
information security program was independent evaluation of their agency’s information security
in place and was generally       program and practices. OIG contracted with KPMG, LLP, to
consistent with FISMA.           perform an audit of FISMA compliance for the Treasury’s
                                 unclassified systems, with the exception of IRS. TIGTA
performed the annual evaluation for IRS. Based on the results reported by KPMG and TIGTA, we
determined that Treasury’s information security program was in place and was generally
consistent with FISMA.

However, the KPMG audit indicated that additional steps are required to ensure that Treasury’s
information security risk management program and practices fully comply with applicable
National Institute of Standards and Technology standards and guidelines and FISMA
requirements. Specifically, KPMG reported that (1) The Institute’s Federal Information Processing
Standards 200 minimum security control baselines were not sufficiently documented, tested,
and/or implemented; (2) computer security incidents were not consistently reported timely or
correctly categorized; (3) common security configuration baselines were not fully compliant; and
(4) federal desktop core configurations were not fully implemented.

TIGTA reported that IRS had made significant improvements in the areas of security identified as
needing improvement in TIGTA’s 2007 FISMA evaluation and had improved the efficiency of its
certification and accreditation process. Additionally, TIGTA found that IRS had completed
certification and accreditation for its remaining systems. TIGTA noted that the most significant
area of concern was IRS’s implementation of configuration management standards. (OIG-08-046)




              Treasury Office of Inspector General Semiannual Report – September 2008           12
                    S IGNIFICANT A UDITS AND E VALUATIONS

Fiscal Year 2008 Evaluation of Treasury's FISMA Implementation for Its Non-IRS
Intelligence Systems (Classified Report)

FISMA requires an annual independent evaluation of the information security program and
practices for Treasury’s national security systems. During this semiannual period, we performed
the FISMA evaluation of Treasury’s non-IRS national security systems as they relate to
Treasury’s intelligence program. We noted that the program still needs improvement. Our report
is classified. (OIG-CA-08-009)

Fiscal Year 2008 Evaluation of Treasury’s FISMA Implementation for Its Non-IRS Non-
Intelligence National Security Systems

We performed the fiscal year 2008 evaluation of Treasury’s FISMA implementation for its non-
IRS non-intelligence national security systems. We determined that Treasury has addressed the
finding cited in our prior year report and implemented the recommendation. However, Treasury’s
information security program and practices, as they relate to non-IRS non-intelligence national
security systems, need to be improved. We cited three findings and made three
recommendations. Due to the sensitive nature of these systems, this report has been designated
Sensitive But Unclassified. (OIG-CA-08-012)

Network Security at OCC Needs Improvement

We completed an evaluation of network security at OCC to           We found vulnerabilities,
identify any existing vulnerabilities in computer systems,         including one that allowed us to
servers, infrastructure devices, and users’ awareness of           gain full access to one OCC server.
information security threats. An unauthorized attack or system
intrusion on OCC’s network could be detrimental to its mission
and banking oversight duties. We found vulnerabilities, including one that allowed us to gain full
access to one OCC server, and we provided recommendations to address these vulnerabilities.
OCC concurred with our recommendations and has implemented or planned corrective actions
that are responsive to our recommendations. (OIG-08-035)

Treasury Successfully Demonstrated Its Treasury Communications System (TCS) Disaster
Recovery Capability

 Although the January 2008        In January 2008, we observed a disaster recovery exercise of
 disaster recover exercise was    the TCS. Our overall objective was to determine whether
                                  Treasury could successfully demonstrate its TCS disaster
 successful, we found one area that
 required improvement.            recovery capability. In addition, we followed up on the finding
                                  from a previous disaster recovery excercise. We found that
Treasury successfully demonstrated its TCS disaster recovery capability. We also found that
Treasury had addressed the finding identified in our 2007 TCS disaster recovery exercise report
and implemented two of the three corresponding recommendations. Although the January 2008
disaster recover exercise was successful, we found one area that required improvement and
made two recommendations. Treasury management concurred with our observations and




              Treasury Office of Inspector General Semiannual Report – September 2008            13
                    S IGNIFICANT A UDITS AND E VALUATIONS

responded to both recommendations. Because of the sensitivity of certain information in our
report, we designated the report Sensitive But Unclassified. (OIG-CA-08-010)

BEP Management Information System Disaster Recovery Exercise Was Successful

In April 2008, we observed a disaster recovery exercise of the BEP Management Information
System and followed up on the findings from our observation of a previous disaster recovery
exercise. BEP successfully demonstrated its system’s disaster recovery capability and had
addressed our prior findings. Although the April 2008 exercise was successful, a secondary
objective of the exercise—to restore encrypted backup tapes—failed. We made one
recommendation related to this finding and BEP management concurred. (OIG-CA-08-011)



Programs and Operations

Material Loss Review of NetBank, FSB

Improvements are needed in (1) the We conducted a material loss review of the failure of NetBank,
use of internal OTS assessments,   FSB, of Alpharetta, Georgia. Our review was mandated under
(2) the timing of formal           section 38(k) of the Federal Deposit Insurance Act. OTS closed
enforcement actions, and (3)       NetBank and appointed the Federal Deposit Insurance
OTS’s internal reviews of thrift   Corporation as receiver on September 28, 2007. At that time,
failures.                          the Federal Deposit Insurance Corporation estimated that
                                   NetBank’s failure would cost the Deposit Insurance Fund $108
million. The objectives of our review were to ascertain why NetBank’s problems resulted in a
material loss to the insurance fund, assess OTS’s supervision of NetBank, and make
recommendations to prevent future losses.

Unfavorable economic conditions, combined with ineffective business strategies and controls,
high expenses, and large losses related to a commercial lease portfolio and NetBank’s mortgage
banking operations, were significant causes of NetBank’s failure. OTS conducted timely and
regular examinations of NetBank and provided oversight through its off-site monitoring. However,
we noted that improvements are needed in (1) the use of internal OTS assessments, (2) the
timing of formal enforcement actions, and (3) OTS’s internal reviews of thrift failures. We
recommended OTS (1) ensure that the recommendations/lessons learned from internal
assessments of the NetBank failure are implemented; (2) re-emphasize to examiners that, formal
enforcement action is presumed warranted for 3-rated thrifts 2 when certain circumstances exist

2
  OTS, like other bank regulatory agencies, uses the Uniform Financial Institutions Rating System,
commonly called the CAMELS ratings. The CAMELS rating system provides a general framework for
assimilating and evaluating all significant financial, operational, and compliance factors inherent in a bank
or thrift. It enables the regulator to assign each banking organization individual CAMELS component ratings
and an overall composite rating that indicates the institution’s overall condition. CAMELS is an acronym for
the performance rating components: Capital adequacy, Asset quality, Management administration,
Earnings, Liquidity, and Sensitivity to market risk. Numerical values range from 1 to 5, with 1 being the
highest rating and 5 representing the worst rated institutions.


              Treasury Office of Inspector General Semiannual Report – September 2008                  14
                   S IGNIFICANT A UDITS AND E VALUATIONS

and, if such action is not taken, the requirement that they document the reasons for not taking
action; and (3) establish in policy a process to assess the causes of thrift failures, supervision
exercised over the institution, and appropriate actions taken to address any significant
supervisory weaknesses or concerns identified.

In its response, OTS agreed with our overall review results and recommendations. OTS plans to
implement responsive actions to the recommendations/lessons learned from its internal
assessments of the NetBank failure. OTS also will issue an internal staff bulletin re-emphasizing
the current enforcement action guidance in the OTS Examination Handbook for 3-rated
institutions and emphasize the importance of documenting the reasons when a formal
enforcement action is not pursued. OTS has begun drafting a policy that will require an
assessment for any future thrift failures. (OIG-08-032)

Review of Treasury’s Failure to Provide Congress With Required Quadrennial Reports in
1998 and 2002 on Foreign Acquisitions and Industrial Espionage Activity Involving U.S.
Critical Technology Companies

Section 721(k) of the Defense Production Act of 1950, which          Controls did not exist within
was enacted in 1992, required that quadrennial reports on            Treasury to ensure that officials
foreign acquisition strategies and industrial espionage activities   were aware of the 1994 executive
be provided to Congress. We were mandated by the Foreign             order.
Investment and National Security Act of 2007 to determine
why the quadrennial reports for 1998 and 2002 were not
produced.

Since the reporting mandate’s establishment, only two reports have been produced—one in 1994
and one in 2006. The 1994 report was prepared by an interagency working group under the
auspices of Treasury. It was transmitted to Congress by the National Economic Council, even
though the President had assigned reporting responsibility to Treasury 2 months earlier. The
report relied heavily on a commercial database on foreign investment to which the Central
Intelligence Agency had subscribed. The 2006 report, which covered the 12-year period from
1994-2006, was also prepared by an interagency group under Treasury’s direction, and
transmitted by Treasury to Congress. Once again, the Central Intelligence Agency’s subscription
to a commercial database was a critical source of the needed information.

Office of International Affairs officials said they were unaware that the President had transferred
these reporting responsibilities by executive order to Treasury in 1994. The officials explained
that they had attempted to obtain information for a second report in 1998, even though they did
not believe that Treasury had any formal responsibility to prepare the report. However, Treasury
officials learned that the Central Intelligence Agency no longer subscribed to the commercial
database that had been used for the 1994 report. Moreover, the espionage section of the
quadrennial report was already being supplied to Congress in a report provided by the National
Counterintelligence Executive’s Office. A report for 1998 was not produced. Treasury did not
pursue the reporting matter in 2002. In July 2007, the Foreign Investment and National Security
Act became law, and now requires annual reporting by Treasury on foreign investment in the
U.S. and related national security concerns.



             Treasury Office of Inspector General Semiannual Report – September 2008              15
                     S IGNIFICANT A UDITS AND E VALUATIONS

Controls did not exist within Treasury to ensure that officials were aware of the 1994 executive
order. In late fiscal year 2007, Treasury’s Executive Secretary began maintaining a master list of
all departmental-mandated tasks, including the requirement to report information annually on
foreign investments in the United States.

The Office of International Affairs concurred with our recommendations that (1) internal guidance
for implementing the Foreign Investment and National Security Act is established and includes
procedures for preparing and issuing the now annual report to Congress and (2) Treasury,
consistent with the Secretary’s authority under the executive order that implements the Act,
designates participating agencies and specifies their responsibilities in preparing the annual
report. (OIG-08-031)

Review of the Tax Guidance Process

                                   We conducted an audit at the OTP concerning the tax
 We did not find any deficiencies in
 the tax guidance development      guidance process. This was in response to a request from the
 process that require corrective   Senate Finance Committee that TIGTA assess the tax
 actions by OTP.                   guidance process at OTP and IRS. Because OTP is under the
                                   jurisdiction of our office, we and TIGTA coordinated audit
work to respond to the committee’s request. The objective of this audit was to evaluate the
process and related controls for developing tax guidance, including the pilot program described in
IRS Notice 2007-17, Modifications of Commercial Mortgage Loans Held by a Real Estate
Mortgage Investment Conduit. We focused our work on OTP, and TIGTA focused its work on
IRS.

We determined that the pilot program process described in IRS Notice 2007-17 and the
traditional guidance development process are consistent with each other, with the exception that
notices to be issued under the pilot program would also request draft guidance language from the
public. We did not find any deficiencies in the tax guidance development process that require
corrective actions by OTP. Accordingly, our report did not contain recommendations. With
respect to IRS, TIGTA noted in its March 2008 report that although IRS Counsel has increased
the level of attention it places on the published guidance program, additional controls would
further strengthen the process. In its response, IRS Counsel agreed with 6 of the 7
recommendations and partially agreed to the other recommendation. (OIG-08-039)

Responsibility for the BSA Is Spread Across Many Organizations

BSA, enacted in 1970 and administered by Treasury, requires that financial institutions file
certain reports and maintain specified records to provide a paper trail of the activities of money
launderers that can be used by law enforcement officials. In September 2002, by virtue of the
USA PATRIOT Act, the Secretary of the Treasury delegated authority to implement and
administer BSA to the Director of FinCEN. FinCEN reports to the Under Secretary for Terrorism
and Financial Intelligence.

The purpose of our review was to identify and describe Treasury’s authority and responsibility
administering BSA. We identified 12 organizations with substantial BSA responsibilities. The
organization with primary responsibility is FinCEN, which is supported by the IRS Enterprise


              Treasury Office of Inspector General Semiannual Report – September 2008          16
                   S IGNIFICANT A UDITS AND E VALUATIONS

Computing Center–Detroit to maintain BSA-related databases. IRS also examines certain financial
institutions for BSA compliance. In addition to IRS, seven federal financial institution regulators
(including the five federal banking agencies) and three self-regulatory organizations (e.g., the
Securities and Exchange Commission) ensure compliance with BSA by their regulated institutions.
Five of the financial institution regulators and the three self-regulatory organizations are outside
of Treasury. We also identified nine federal law enforcement agencies–one within Treasury and
eight others–that significantly use BSA data. While the Under Secretary for TFI has direct
authority over FinCEN, the lines of authority over the other Treasury bureaus and all non-Treasury
organizations are indirect. For example, OCC and OTS, which examine and enforce BSA
compliance by national banks and thrifts, respectively, do not report directly to TFI. IRS also does
not report directly to TFI. Other federal regulators, such as the Federal Deposit Insurance
Corporation, the Board of Governors of the Federal Reserve System, and the National Credit
Union Administration, oversee financial institution compliance with BSA but are independent of
Treasury.

Without direct authority, Treasury (through FinCEN)            Without direct authority, Treasury
provides overall support and coordinates efforts to ensure     (through FinCEN) provides overall
BSA compliance through regulations, guidance, and MOU          support and coordinates efforts to
with federal and state regulators. Because most of these       ensure BSA compliance through
MOUs are relatively recent and voluntary, it is difficult to   regulations, guidance, and MOU
say yet whether they are working. We found that                with federal and state regulators.
communication between FinCEN and law enforcement
agencies needs improvement. In addition, BSA-related costs
and performance data of regulators and self-regulatory organizations involved in ensuring BSA
compliance are not generally available.

Challenged by these limitations, Treasury must manage the program within the range of its
authority. To ensure effective management of BSA-related activities and provide a clearer picture
of the results of these efforts, we recommended FinCEN (1) establish a plan for periodically
assessing whether its compliance and information sharing MOUs with regulators are working as
intended, (2) determine a means for ensuring that FinCEN and law enforcement agencies
sufficiently communicate about the extent to which FinCEN should use its analytic capabilities to
support the agencies in their investigations, and (3) work with Treasury and non-Treasury
organizations to develop BSA-related performance measures or indicators to track results
achieved. In its response, FinCEN concurred with the recommendations and cited a number of
activities undertaken and planned.

We anticipate that our report will serve as a source of reference for Treasury policy makers and
other stakeholders who contemplate this important subject. (OIG-08-030)

FinCEN Has Taken Action to Improve Its Program to Register Money Services Businesses
(Corrective Action Verification on OIG-05-050)

We found that corrective actions taken by FinCEN addressed the intent of the recommendations
in a previous Treasury OIG audit report on FinCEN’s Money Services Businesses (MSB)
registration program. Specifically, FinCEN developed a strategy to identify unregistered MSBs and
coordinate regulatory actions, and issued guidance on MSB registration and deregistration that


             Treasury Office of Inspector General Semiannual Report – September 2008           17
                   S IGNIFICANT A UDITS AND E VALUATIONS

defines the dollar transaction threshold for MSB designation more clearly. In addition, FinCEN is
in the process of reviewing its regulatory framework for MSBs. (OIG-08-033)

OTS Examinations of Thrifts for BSA and USA PATRIOT Act Compliance Were Often
Limited

 At 82 of the 95 sampled thrifts,    We reviewed OTS’s most recent BSA examinations for a
 examiners did not evaluate          sample of 95 thrifts. At 82 of the 95 sampled thrifts,
 whether significant [BSA]           examiners did not evaluate whether significant compliance
 compliance program elements had     program elements had been implemented. Examiners
 been implemented.                   frequently accepted that the thrift programs were up to
                                     standard because the thrifts had policies and procedures in
                                     place for certain BSA and USA PATRIOT Act program areas,
without determining the manner in which these policies and procedures were implemented. In
other cases, examiners did not fully understand the provisions that had been added to BSA with
the enactment of the USA PATRIOT Act. This resulted in limited reviews, or no additional testing
in situations that posed a potential risk to the thrift. Areas in which examinations were limited
included 314(a) information sharing; customer identification programs; customer due diligence
activities; and separation of duties of thrift officials who perform independent testing or day-to-
day BSA functions and are also responsible for the administration, oversight, direction and
monitoring of the thrift’s compliance program.

For each thrift in our sample, at least one BSA compliance examination area lacked evidence of
review or the examiner’s assessment of work that was warranted in the particular BSA
compliance area. OTS guidance requires examiners to document in their workpapers the
judgments made during examinations and the basis for selecting areas subject to review. The
review of a thrift’s electronic banking activities, specifically Internet banking, most often lacked
evidence of examiner review. Also, although OTS’s information technology group examines the
authentication processes at thrifts, the information technology group does not routinely share the
results of the examinations with compliance examiners, even though problems with
authentication processes may affect the adequacy of BSA controls.

In addition, OTS’s regions were inconsistent when reporting findings regarding outdated or
incomplete written BSA programs, in some cases representing the findings as recommendations
for enhancement and in other cases as BSA violations. OTS guidance states that required
elements that are missing from written BSA programs should be considered violations and
entered as such into OTS examination system records and Reports of Examinations.

OTS generally concurred with our recommendations that it: (1) reinforce the need for examiners
to adhere to existing BSA examination-related guidance, and assess if it is necessary to provide
supplemental guidance and training to ensure examination consistency and documentation of
examinations; (2) for thrifts that offer electronic banking services, have compliance examiners
consult with examiners performing information technology examinations to determine if there are
additional BSA-related risks; and (3) provide guidance to examiners to ensure that they
consistently cite thrifts for violations when their written BSA programs are missing required
elements. In its response, OTS took exception to or commented on certain matters in our report,
and the final report includes our assessment of OTS’s comments. OTS also stated, among other


             Treasury Office of Inspector General Semiannual Report – September 2008           18
                    S IGNIFICANT A UDITS AND E VALUATIONS

things, that it is committed to ensuring that savings associations are in compliance with BSA and
anti-money laundering requirements and that OTS has devoted significant resources in this area.
(OIG-08-034)

Treasury Foreign Intelligence Network Project Experienced Delays and Project
Management Weaknesses

Treasury initiated the $37 million Treasury Foreign Intelligence Network (TFIN) project as a
priority to stabilize and upgrade the analytical capabilities of its intelligence system. Due to its
expanding role in fighting terrorism activities, analysts required more capabilities than the existing
system could offer. Our report focused on (1) determining whether sound project management
principles were followed in executing the project, (2) if procurement requirements were adhered
to in the acquisition of contract support, and (3) whether the TFIN business case was based on
appropriate and supportable assumptions. As part of our work, we reviewed project milestones to
determine if the work was progressing on schedule.

Although Treasury did not meet the planned September 30,            Although Treasury did not meet
2007, timeline for completing segment 2B of the TFIN                the planned September 30, 2007,
modernization project – enhanced analyst tool set – we found        timeline for completing segment
that the work was progressing. The estimated completion date        2B of the TFIN modernization
for segment 2B was pushed back several times and as of the          project – enhanced analyst tool set
end of our fieldwork in March 2008, no date had been                – we found that the work was
established for the completion of this segment. Our                 progressing.
discussions with the Assistant Secretary for Intelligence and
Analysis – the TFIN business owner, the Treasury Chief Information Officer, and TFIN pilot
program users indicated that barring any unforeseen complications, the revamped system was
expected to provide the necessary applications for Office of Intelligence and Analysis to
accomplish its work and mission. As a subsequent event, in a memorandum dated May 21,
2008, the Assistant Secretary and the Chief Information Officer informed us that segment 2B
was completed and deployed on April 17, 2008. Additionally, analysts have been trained and
have begun using the system.

As for other findings, documentation for the project was inadequate to demonstrate sound
project management principles were followed, and for one TFIN-related contract in the amount of
$440,000, Treasury did not conform to the Federal Acquisition Regulation sole source
justification requirements.

We recommended that management continue working toward a successful completion of the
remaining segments of the TFIN modernization project. We also recommended that the Treasury
Chief Information Officer work with business owners to ensure that planning efforts are
appropriate and adequately documented at the outset of a major investment project and ensure
that all key planning and decision documents for major information technology acquisitions are
retained in a manner to be readily available for management or external audit review.
Furthermore, we recommended that Treasury’s Senior Procurement Executive ensure that
contracting officers are reminded to properly justify and document procurements that are made
on a basis other than full and open competition. Management generally concurred with the



              Treasury Office of Inspector General Semiannual Report – September 2008              19
                      S IGNIFICANT A UDITS AND E VALUATIONS

recommendations and provided comments for certain matters discussed in the report.
(OIG-08-040)

BEP Needs to Enforce and Strengthen Controls at Its Eastern Currency Facility to Prevent
and Detect Employee Theft

In June 2006, BEP notified us that at least 64 incomplete $100 notes had entered into
commerce. A joint investigation by OIG, BEP, the U.S. Secret Service, and the Federal Bureau of
Investigation led to the recovery of additional incomplete notes. Investigators found that these
notes originated from 21 32-count sheets of partially printed $100 notes that a BEP Eastern
Currency Facility employee stole in May 2006. The thief was able to put the partially printed
currency into circulation by using casino vending machines. We conducted our audit to determine
what internal control failures allowed the theft to occur and whether, since the theft, BEP had
enhanced its internal controls to prevent a similar theft and provide for timely detection should
another theft occur.

                                       We determined that the theft occurred because BEP failed to
 The theft occurred because BEP
                                       ensure that production supervisors enforced, and employees
 failed to ensure that production
                                       adhered to, existing internal controls. Additionally, no policies
 supervisors enforced, and
                                       and procedures were in place to investigate production
 employees adhered to, existing
                                       discrepancies. We recommended that BEP take several actions
 internal controls. Additionally, no
                                       to strengthen its internal controls and provide for periodic
 policies and procedures were in
                                       employee security training. BEP concurred and plans to add
 place to investigate production
                                       routine security patrols, establish policies and procedures for
 discrepancies.
                                       dealing with production discrepancies, and provide annual
                                       security training to employees.

In September 2006, the employee pled guilty, pursuant to a plea agreement, to one count of
possession of tools and materials for counterfeiting purposes. In February 2007, the employee
was sentenced to 9 months of incarceration and 3 years of supervised release and was ordered
to pay restitution of $37,200. After his arrest, the employee retired from federal service and is
drawing a federal government pension. (OIG-08-036)

Controls Over Treasury's Working Capital Fund Expense Process Need Improvement

According to criteria on         We performed an audit of Treasury’s working capital fund (WCF)
                                 to determine whether adequate controls over WCF had been
acceptable error rates in tests of
controls and based on the resultsestablished. We initially planned to determine, as sub-objectives
of our testing, we concluded thatof the audit, whether (1) WCF activities and programs were
controls related to OFM          appropriate for inclusion in the fund; (2) reconciliations between
processing of WCF transactions   actual costs incurred by WCF and costs billed to participating
were ineffective.                Treasury bureaus existed, were timely prepared, and consistent;
                                 (3) costs charged by WCF were appropriate; (4) costs charged
by WCF to specific bureaus were supported by appropriate documentation; and (5) assumptions,
data, processes, and models used by WCF to estimate its annual costs were reasonable. Because
of unforeseen priorities, we only completed and reported on objectives 3 and 4. We plan to
address the remaining objectives in a subsequent audit.


               Treasury Office of Inspector General Semiannual Report – September 2008            20
                   S IGNIFICANT A UDITS AND E VALUATIONS


The following control weaknesses in the payment and recording of WCF expenses were found:

 •     WCF expenses were not always appropriately recorded between shared and bureau-
       specific. The Office of Financial Management (OFM) did not always correctly record
       expenses for WCF customers, and WCF program offices did not adequately monitor
       recorded expenses.

 •     Some WCF transactions were in violation of the Prompt Payment Act because OFM did
       not pay interest penalties to WCF vendors for late payments. In addition, OFM paid
       interest to one vendor when it was not required. Late payments to vendors result in
       increased and unnecessary interest costs to WCF and its customers.

 •     Supporting documentation was not available for some WCF transactions. Without
       adequate documentation, the appropriateness of transactions cannot be verified.

 •     Some expenses were charged to WCF that it did not incur, and WCF did not adequately
       monitor these charges to ensure that they were appropriate. Failure to adequately monitor
       and review expenses charged increases the risk that improperly charged expenses may
       result in increased costs to WCF and its customers.

According to criteria on acceptable error rates in tests of controls and based on the results of our
testing, we concluded that controls related to OFM processing of WCF transactions were
ineffective.

Management concurred with our recommendations to update or develop procedures and train
staff to improve controls over expenses charged to the WCF and ensure compliance with the
Prompt Payment Act. However, management disagreed that there were instances of violations
with the Prompt Payment Act for payments made to one WCF vendor. We evaluated the
information provided in the response and we still conclude the Prompt Payment Act was violated
in these instances.

As part of our audit, we administered a survey questionnaire to WCF customers. Customers
generally indicated that they were satisfied with WCF programs’ performance. However, many
customers expressed concerns regarding insufficient communication of information and a
perceived lack of transparency in WCF operations. Some customers questioned the value of
participating in WCF. We provided the survey results in our report for WCF management to
consider in its operations. (OIG-08-041)

Office of Management Needs to Improve Its Monitoring of the Department’s Audit
Follow-up Process

In December 2007, the House Committee on Oversight and Government Reform asked us to
provide certain information relating to Treasury OIG audit recommendations that were not
implemented. In letters dated January 30 and March 6, 2008, we provided this information to
the committee for 20 audit recommendations that had not been implemented as of September
30, 2007.


             Treasury Office of Inspector General Semiannual Report – September 2008           21
                     S IGNIFICANT A UDITS AND E VALUATIONS


 Audit follow-up was not            In compiling the information for the committee, we found that
 consistently performed on audit    (1) audit follow-up was not consistently performed on audit
 recommendations by the             recommendations by the responsible Treasury officials; (2) the
 responsible Treasury officials.    status of numerous audit recommendations was not updated
                                    in the Department’s audit follow-up tracking system called the
Joint Audit Management Enterprise System (JAMES); (3) planned corrective actions were not
consistently recorded in JAMES; and (4) an audit follow-up officer was not designated for the
Office of Terrorist Financing and Financial Crimes. To address these matters, we issued a report
to the Assistant Secretary for Management and Chief Financial Officer. In that report, we
recommended that (1) a plan be developed and implemented to assure timely and proper
resolution and implementation of audit recommendations; (2) audit follow-up officers be required
to ensure corrective action plans to implement recommendations are prepared and the status of
plans monitored and properly reflected in JAMES, and (3) audit follow-up officers be designated
to provide for appropriate, continuous coverage of all Treasury offices. Management concurred
with the recommendations. (OIG-08-037)

OCC Is Appropriately Using HMDA Data in Its Risk Assessment Process to Identify
Possible Discriminatory Lending Practices

OCC used HMDA data—as the          We conducted an audit at OCC concerning the use of Home
law intended—to identify possible  Mortgage Disclosure Act (HMDA) data. The objectives of the
discriminatory lending patterns.   audit were to determine whether (1) OCC is making appropriate
                                   use of HMDA data in its risk assessment process to identify
instances of possible discriminatory lending practices, and (2) OCC is taking appropriate action to
follow up on identified instances of possible discriminatory lending practices. As an observation,
HMDA data consist of certain borrower characteristics and certain loan characteristics. One of
HMDA’s purposes is to help regulators identify possible discriminatory lending patterns and
enforce antidiscrimination statutes. HMDA data in past years have indicated disparities in
mortgage lending by race and ethnicity, but HMDA data alone are generally considered
insufficient to determine whether a lender is complying with fair lending laws because the data
do not include potential key determinants of loan pricing, such as borrowers’ credit scores, debt-
to-income ratios, or loan-to-value ratios.

OCC used HMDA data—as the law intended—to identify possible discriminatory lending patterns.
OCC (1) runs HMDA data through several screens to identify outliers, (2) prepares a preliminary
screening list that is reviewed by OCC’s Deputy Comptrollers in charge of bank supervision, and
(3) prepares a final screening list and schedules Fair Lending examinations for all institutions
included on the final screening list. In addition, OCC took appropriate action to follow up on
HMDA data that indicates potential discrimination in lending.

Although OCC has documented its internal operating procedures for the use of HMDA data, the
document is in draft form only. We recommended that OCC finalize these procedures. We also
recommended that the procedures address OCC’s plans to monitor demographic shifts and to
adjust the screening process as necessary. OCC agreed. (OIG-08-038)




               Treasury Office of Inspector General Semiannual Report – September 2008        22
                  S IGNIFICANT A UDITS AND E VALUATIONS

Private Collection Agencies Need to Improve Compliance with the Financial Management
Service’s Debt Compromise Requirements

As the federal government’s financial manager, FMS implements the government’s delinquent
debt program. FMS collected an annual average of more than $3 billion in delinquent debt over
the last 4 fiscal years through the Treasury Offset Program (TOP) and the Cross-Servicing
Program. FMS Debt Management Services (DMS) provides federal agencies with debt collection
and management services and leads the development and implementation of governmentwide
debt management policies. Once DMS determines that debtors cannot be located or are unwilling
to resolve debts in an acceptable manner, the debts may be sent to a private collection agency
(PCA). PCAs are private companies that specialize in collecting delinquent debt. They attempt to
find and contact debtors by searching databases, making telephone calls, and sending collection
letters. Once debtors are located and contacted, PCAs encourage them to satisfy their debts.

During this period, we issued reports on our audits of two PCAs. Our objectives were to
determine, for compromises of delinquent federal nontax debt, whether PCAs were (1) following
PCA contract requirements, including (a) attempting to collect the full amount due before
considering a compromise and (b) compromising at authorized levels; and (2) documenting each
compromise, providing proper justification, and retaining evidence for the required period.

Pioneer Credit Recovery, Inc. The PCA processed 274 compromise agreements for which the
forgiven amount was in excess of $2,000 during the 1-year period ending January 31, 2008.
The forgiven amounts for these 274 agreements totaled $10.6 million. We found that the PCA
was not following some PCA contract requirements and FMS policy, including documentation and
justification provisions for debt compromise. (OIG-08-043)

Linebarger, Goggan, Blair & Sampson, LLP The PCA processed 132 compromise agreements for
which the forgiven amount was in excess of $2,000 during the 1-year period ending January 31,
2008. The forgiven amounts for these 132 agreements totaled $4.8 million. We found that the
PCA was not following some PCA contract requirements and FMS policy, including
documentation provisions for debt compromise. (OIG-08-044)

FMS concurred with our recommendations to address these matters found at the two PCAs.

Our audits of the two PCAs are part of a series of audits of debt compromise activities by PCAs
under contract with FMS. We plan to report on other PCAs and DMS’s overall management of
debt compromise in the future.

                           (End of Significant Audits and Evaluations)




             Treasury Office of Inspector General Semiannual Report – September 2008       23
                              S IGNIFICANT I NVESTIGATIONS

Thirteen Individuals Indicted in the District of Maryland

According to the 53-count           A joint investigation by Treasury OIG, U.S. Secret Service,
indictment, from April 2006 to      U.S. Postal Service OIG, and U.S. Postal Inspection Service
May 2007, a U.S. Postal Service     resulted in the June 25, 2008, indictment of 13 individuals
employee stole Treasury checks      in an alleged scheme to steal Treasury checks from the mail
from the post office where he       and cash the checks using false identification documents.
worked in Baltimore, Maryland.      According to the 53-count indictment, from April 2006 to
                                    May 2007, a U.S. Postal Service employee stole Treasury
checks from the post office where he worked in Baltimore, Maryland, and provided the stolen
mail to other co-conspirators. Two other individuals manufactured and distributed false
identification documents, such as driver’s licenses, bearing the conspirators’ photo with the
names and addresses of the victims whose mail was stolen. By using the false identifications
to pose as the victims in order to cash the stolen checks, the defendants are alleged to have
fraudulently obtained over $100,000. Eleven arrests have been made and one defendant has
pled guilty to conspiracy to commit mail fraud, forged endorsement of a Treasury check, and
aggravated identity theft in the U.S. District Court for the District of Maryland. Further
investigative activity and judicial action are pending.

Indictment of Maryland Resident

A joint Treasury OIG and U.S. Secret Service investigation       In the 10-count indictment, the
resulted in the August 25, 2008, indictment of a Maryland        subject was charged with bank
resident by a federal grand jury in the District of Maryland. In fraud, forging endorsements on
the 10-count indictment, the subject was charged with bank       Treasury checks, and aiding and
fraud, forging endorsements on Treasury checks, and aiding       abetting.
and abetting, relating to his alleged participation in a scheme
to defraud two financial institutions. It was alleged that the
subject fraudulently endorsed stolen Treasury checks and deposited the funds in bank
accounts that he established using fraudulent identification documents. The amount of
attempted fraud associated with the scheme was over $200,000. Further judicial action is
pending.

Senior Treasury Official Suspended

                                    OIG initiated an investigation after it was reported that a
It was determined that the official’s
conduct was improper and gave the   senior Treasury bureau official allegedly retaliated against a
appearance of barring the former    former employee for whistleblowing during and immediately
employee from representing his      following the individual’s employment with the Treasury
current employer before the         bureau. It was alleged that the senior official contacted the
Treasury bureau.                    individual’s new employer and informed the new employer’s
                                    management that the official did not want the employee to
appear before the bureau on behalf of the employer, an entity regulated by the Treasury
bureau. The employee was soon thereafter terminated, ostensibly due to staff cuts. The
investigation revealed that the senior official made a call, labeling it a recusal notification, and
only later provided written notification of the recusal to the bureau. While the investigation did
not find that the call directly caused the employee’s termination, it was determined that the


                Treasury Office of Inspector General Semiannual Report – September 2008          24
                           S IGNIFICANT I NVESTIGATIONS

official’s conduct was improper and gave the appearance of barring the former employee from
representing his current employer before the Treasury bureau. The senior Treasury official was
suspended for 7 calendar days.

Treasury Employee Convicted on Bribery Charges

A joint investigation conducted by the Treasury OIG,           Money, who owned and operated a
General Services Administration OIG, and the Federal           private construction business in
Bureau of Investigation resulted in the arrest and conviction  addition to his employment with
of Daniel Money, a Treasury Facilities Management Division     the Treasury, agreed to provide
employee, on one count of bribery in the United States         bribe payments totaling $55,000 to
District Court for the District of Columbia. The investigation a Facilities Services Officer of the
revealed that Money, who owned and operated a private          U.S. Tax Court in exchange for the
construction business in addition to his employment with       public official’s awarding of two
Treasury, agreed to provide bribe payments totaling            contracts to Money’s privately
$55,000 to a Facilities Services Officer of the U.S. Tax       owned company.
Court in exchange for the public official’s awarding of two
contracts to Money’s privately owned company, Daniel Construction. Of the negotiated bribe,
Money provided $1,800 in two separate cash payments to the U.S. Tax Court official. Money
entered into a plea agreement with the United States Attorney’s Office and pled guilty to one
count of bribery on October 6, 2008. Sentencing is scheduled for February 5, 2009.

In an initially unrelated Treasury OIG investigation, it was suspected that in or about
December 2007 through February 2008, Money stole diesel fuel from Treasury, resulting in an
estimated loss to Treasury of approximately $2,250. As part of the previously mentioned plea
agreement, Money also acknowledged that he converted to his own personal use
approximately 600 gallons of diesel fuel that was Treasury property when he filled
approximately 11 55-gallon drums on the back of his personally owned vehicle with diesel fuel
from a Treasury-contracted fuel truck.

Seizure of Mutilated Currency

Investigations have resulted in      Since March 2008, joint investigations by Treasury OIG,
three seizures of mutilated          Immigration and Customs Enforcement, and BEP have
currency with an estimated value     resulted in three seizures of mutilated currency with an
totaling more than $6 million.       estimated value totaling more than $6 million. The mutilated
                                     currency was initially submitted to BEP’s Mutilated Currency
Division by individuals who intended to exchange it for its face value. Subsequent
investigative activity identified suspected violations of federal law related to the importation or
international transportation of the currency. The mutilated currency was seized pursuant to
seizure warrants issued in the United States District Court for the District of Columbia. The
seized currency remains in the custody of the government pending further investigative
activity and/or administrative procedures.




              Treasury Office of Inspector General Semiannual Report – September 2008            25
                            S IGNIFICANT I NVESTIGATIONS

Misuse of Authority by Two Treasury Employees

An OIG investigation revealed that two TTB investigators     The two investigators exceeded
exceeded their authority while conducting a product          their authority by entering a
integrity investigation. It was determined that the          private winery without
investigators exceeded their authority by entering a private authorization.
winery without authorization, searching the establishment,
removing documents from the premises to photocopy at a different location, and then
returning the documents to the winery without notifying the winery owner of their actions.
TTB has proposed the removal of both investigators.

Treasury Employee Charged Criminally for Purchasing Illegal Narcotics

A joint investigation by the Treasury OIG, the Federal Bureau of Investigation, and Fairfax
County Police Task Force resulted in the May 2008 arrest of a Treasury employee, who
allegedly purchased illegal narcotics with the intent to further distribute them. The employee
was placed on administrative leave pending the outcome of the investigation. A trial date is
pending in the United States District Court. Further investigative activity has also resulted in
the identification of other possible suspects.

Standards of Conduct Violated by BEP Police Officers

                                  OIG conducted two investigations involving the outside
The investigations determined that
                                  employment or business activities of nine BEP police officers
seven officers violated the
                                  who allegedly used their public positions for private gain by
Standards of Ethical Conduct
                                  patrolling and/or working as security officers for a private
and/or BEP policy and procedures.
                                  company at a nightclub in Washington, DC. The
investigations determined that seven officers violated the Standards of Ethical Conduct and/or
BEP policy and procedures. In addition, the investigations determined that lack of internal
management controls at BEP may have contributed to the actions and perceived violations
committed by the police officers. As a result of the investigations, a Management Implication
Report was issued to BEP, in addition to the investigative findings. In response, BEP
management took corrective administrative action: six BEP police officers received verbal
counseling; one BEP police officer received a letter of warning; and BEP management
implemented new policy and additional in-service training for their police officers.

North Carolina Residents Convicted and Sentenced

A joint investigation by the Treasury OIG and Social           A joint investigation by the
Security Administration (SSA) OIG resulted in the arrest       Treasury OIG and Social Security
and conviction of two North Carolina residents related to      Administration OIG resulted in
their fraudulent negotiation of Treasury-issued checks and     the arrest and conviction of two
receipt of SSA benefit payments following the death of the     North Carolina residents.
intended SSA annuitant. Glenn Jackson previously pled
guilty in Superior Court, Robeson County, North Carolina, to a state charge of obtaining
property by false pretenses. He was sentenced to supervised probation for a term of



               Treasury Office of Inspector General Semiannual Report – September 2008             26
                           S IGNIFICANT I NVESTIGATIONS

36 months and ordered to pay criminal monetary penalties totaling $814. On April 8, 2008,
Christine Davis also pled guilty to the same North Carolina state charge of obtaining property
by false pretenses. She was sentenced to probation for a term of 60 months and ordered to
pay criminal monetary penalties totaling $6,084.

Sentencing of Kansas Resident for Unlawful Receipt of Federal Benefit Payments

Following her mother’s death in       A joint investigation by the Treasury OIG and Department of
February 1989, Shanks continued       Labor (DOL) OIG resulted in the conviction of Iris Shanks,
to claim and improperly received      who fraudulently claimed and received over $90,000 in DOL
DOL Black Lung benefit                benefits initially intended for her mother. Following her
payments.                             mother’s death in February 1989, Shanks continued to claim
                                      and improperly received DOL Black Lung benefit payments.
                                      On March 27, 2008, Shanks pled guilty to one count of
false, fictitious, or fraudulent claims in the United States District Court for the District of
Kansas (Wichita). On July 1, 2008, she was sentenced to probation for a term of 1 year and
ordered to pay criminal monetary penalties in the amount of $92,102 for restitution and a
$100 special assessment.



The following are updates of other significant investigations discussed in previous semiannual
reports.

Sentencing of Former FinCEN Contract Employee

As previously reported, a joint Treasury OIG, Immigration and Customs Enforcement, the
Federal Bureau of Investigation, and Fairfax County Police Department investigation resulted in
the arrest and conviction of Jovie Adawag, a former FinCEN contract employee, who solicited
a sex act from a child using a government-issued computer, telephone, and official e-mail
account. The charges stemmed from collaboration with the Internet Crimes Against Children
Task Force, which placed a posting on an Internet classified website advertising a fictitious
underage prostitute, to which Adawag responded. In response to the investigative findings,
FinCEN removed the employee from the contract.

Update: On April 25, 2008, in the Circuit Court of Fairfax County, Virginia, Adawag was
sentenced to incarceration for a term of 5 years with all but 4 months (time already served)
suspended and probation for a term of 1 year and was ordered to register as a sex offender
with the Virginia State Police.

Florida Resident Arrested on Charges of Federal Emergency Management Agency
Fraud and Identity Theft

As previously reported, a joint Treasury OIG, Department of Homeland Security OIG, and SSA
OIG investigation resulted in the indictment of Janelle Green of West Palm Beach, Florida, by a
federal grand jury in the Southern District of Florida. According to the indictment, the subject
allegedly submitted fraudulent applications for aid in the wake of several hurricane disasters.


              Treasury Office of Inspector General Semiannual Report – September 2008          27
                          S IGNIFICANT I NVESTIGATIONS

The subject allegedly used several different personal identifiers, including false social security
numbers and multiple addresses, when submitting the fraudulent claims. The estimated loss
was over $31,000 in federal assistance.

Update: On June 11, 2008, Green was arrested and on September 11, 2008, she pled guilty
to one count of conversion of government property and one count of aggravated identity theft.
Sentencing is pending in U.S. District Court for the Southern District of Florida.

Sentencing in Improper Payments Case

A joint Treasury OIG and Defense Criminal Investigative Services investigation revealed that
Stanley Foster, Jr., unlawfully received military retirement benefits initially intended for his
father, who died in August 1989. Foster had forged certificates of eligibility and received an
estimated $168,000 in federal payments. In October 2006, Foster was arrested in Hyattsville,
Maryland, pursuant to an arrest warrant issued by the U.S. District Court for the Eastern
District of New York. He was subsequently indicted and pled guilty to one count of theft of
government property.

Update: On June 24, 2008, Foster was sentenced to 2 years of supervised release, including
4 months of home detention, and ordered to pay restitution in the amount of $167,583.

Sentencing of Two Georgia Residents

As previously reported, a joint Treasury OIG and Veterans Affairs OIG investigation resulted in
the indictment, arrest, and conviction of two Georgia residents, Rachel Clark and Rachel D.
Clark (mother and daughter). In February 2008, both subjects pled guilty in the U.S. District
Court for the Middle District of Georgia to one count of theft of government monies relating to
their theft of $7,256 of federal veterans benefits to which they were not entitled.

Update: On April 23, 2008, the subjects were both sentenced to probation for a term of 3
years and ordered to pay criminal monetary penalties in the aggregate amount of $7,256 for
restitution and $100 each for a court assessment.

Sentencing of Texas Resident

As previously reported, a joint Treasury OIG and RRB OIG investigation resulted in the
December 5, 2007, indictment of Frances Biggs by a federal grand jury in the Southern
District of Texas. In the six-count indictment, the subject was charged with wire fraud and
theft of government money relating to the unlawful receipt and theft of RRB widowed spouse
annuity payments to which she was not entitled. On December 6, 2007, Biggs was arrested.

Update: On May 2, 2008, Biggs pled guilty to one count of theft of government money. On
September 24, 2008, Biggs was sentenced to probation for a term of 5 years and ordered to
pay criminal monetary penalties in the amount of $108,626 for restitution and $100 for a
court assessment.




             Treasury Office of Inspector General Semiannual Report – September 2008             28
                         S IGNIFICANT I NVESTIGATIONS

Misuse of Treasury Commuter Program Benefits

As previously reported, in response to various referrals from GAO, Treasury OIG initiated
multiple investigations involving the potential misuse of public transportation subsidies by DO
employees. The investigations revealed that several of the identified Treasury employees
received excessive transportation subsidy benefits and misused them by selling them for profit
or giving them to friends and family members, in violation of the program policy. In addition, it
was determined that in order to receive the excess subsidy benefits, the employees provided
inaccurate information when applying to the program. The results of the investigations were
provided to DO management for administrative action.

Update: In April 2008, DO reported that four employees received proposed 14-day
suspensions and one employee received a proposed removal from federal service.

                               (End of Significant Investigations)




             Treasury Office of Inspector General Semiannual Report – September 2008           29
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

OIG Hosts Delegations from Spain and France

During the semiannual period, Treasury OIG hosted two foreign delegations to discuss the
mission of U.S. government Inspectors General and our office.

In May 2008, Deputy Inspector Dennis Schindel, Treasury Inspector General for Tax
Administration J. Russell George, and senior executives of Treasury OIG and TIGTA met with
the following officials of the government of Spain. The meeting was arranged through the
Embassy of Spain.

•   Juan Angel Esteban Paul, Inspección General Ministerio Economía y Hacienda: Inspector
    General (Treasury Inspector General)
•   Marina Fernandez Castaño, Servicio de Auditoría Interna – Agencia Tributaria: Jefa de
    Departamento (Treasury Inspector General for the Tax Administration)
•   José Alberto Pérez Pérez, Intervención General de la Administración del Estado (IGAE) –
    Interventor General (Comptroller General)
•   Mercedes Vega, IGAE: Jefa de División de Organización, Coordinación y Supervisión (Chief
    of Organization, Coordination & Supervision Division - Office of the Comptroller General)
•   Gregorio Cuñado, Tribunal de Cuentas – Director Técnico de la Presidencia (Accounting
    Tribunal – Technical Director of the Presidency)
•   Maria Luz Martin Sanz, Tribunal de Cuentas – Subdirectora Técnica (Accounting Tribunal –
    Technical Subdirector)
•   Juan Antonio Garde Roca, Agencia de Evaluación y Calidad de Políticas Públicas (AEVAL):
    Presidente (National Agency for the Evaluation of Public Policies and the Quality of
    Services – President)
•   Juan María Burdie, AEVAL: Presidente
•   Inés Pérez-Durantez Bayona, AEVAL: Directora de División de Evaluación (Chief of
    Evaluation Division)




Treasury Inspector General for Tax
Administration George and Treasury
OIG Deputy Inspector General
Schindel with visiting Spanish
officials.




In September 2008, Inspector General Eric Thorson and OIG senior executives met with the
following officials of the government of France: Henri Guillaume, Financial Inspector General,




             Treasury Office of Inspector General Semiannual Report – September 2008         30
             O THER OIG A CCOMPLISHMENTS AND A CTIVITY

and Nicolas Colin, Financial Inspector. Also attending was Agnès Surry of the Embassy of
France.




                                                                 Mr. Colin, Inspector General
                                                                 Thorson, Financial Inspector
                                                                 General Guillaume, Assistant
                                                                 Inspector General Marla Freedman,
                                                                 Counsel to the IG Rich Delmar,
                                                                 Deputy Assistant Inspector General
                                                                 Bob Taylor, Ms. Surry, and
                                                                 Assistant Inspector General Matt
                                                                 Issman.




PCIE Awards

At the annual joint President’s Council on Integrity and Efficiency (PCIE) and Executive Council
on Integrity and Efficiency (ECIE) ceremony on October 23, 2008, Treasury OIG received a
prestigious Audit Award for Excellence in recognition of its material loss review of NetBank,
FSB (the results of this review are discussed on page 14). Treasury OIG also sponsored the
nomination of the Financial Statement Audit Network which was accepted for this year’s Barry
R. Synder PCIE/ECIE Joint Award. The Network, with its membership of nearly 140
representatives from the Inspector General community, OMB, and GAO was recognized for
improving federal financial management.



OIG NetBank Material Loss Review Team
(front – Susan Barron, Audit Director, Jeff
Dye, Audit Manager, Amni Samson,
Auditor; back – Michelle Littlejohn, Auditor,
John Gauthier, Auditor, Jai Mathai, Audit
Manager, Regina Morrison, Auditor, Deputy
Inspector General Schindel, Inspector
General Thorson, Assistant Inspector
General Marla Freedman, Deputy Assistant
Inspector General Bob Taylor; not pictured
– Alain Dubois, Audit Director, and Delores
Dabney, Audit Manager)




               Treasury Office of Inspector General Semiannual Report – September 2008           31
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

OIG Audit Leadership Roles

The Federal Audit Executive Council (FAEC) consists of audit executives from the OIG
community and other federal audit organizations. Its purpose is to discuss and coordinate
issues affecting the federal audit community with special emphasis on audit policy and
operations of common interest to FAEC members. During the period, Treasury OIG continued
to actively support a number of FAEC initiatives.

•   As chair of the FAEC Training Committee, Marla Freedman, Assistant Inspector General for
    Audit, worked with other committee members to continue to promote and support auditor
    training. Among other things, the Committee (1) maintains a set of standard statements of
    work to contract for auditing courses, (2) maintains public and private websites on
    www.ignet.gov to facilitate information sharing on sources of training and training
    partnering/sharing opportunities, and (3) provides review services for training courses.
    During this period, the Committee completed a review of a course offered by the Inspector
    General Criminal Investigator Academy entitled Inspector General Interviewing for Auditors.

•   Joel Grover, Deputy Assistant Inspector General for Financial Management and Information
    Technology Audits, serves as co-chair of the FAEC Financial Statements Committee and is
    actively involved in developing and coordinating FAEC positions on a variety of accounting
    and auditing issues related to federal financial reporting. The committee also jointly
    sponsors with GAO an annual federal financial statement audit update conference.

•   Bob Taylor, Deputy Assistant Inspector General for Performance Audits, is leading a multi-
    agency effort to update the President’s Council on Integrity and Efficiency and Executive
    Council on Integrity and Efficiency guide for external peer reviews of federal audit
    organizations. External peer reviews are required every 3 years under Government Auditing
    Standards. An exposure draft of the updated guide, which incorporates the requirements of
    the 2007 revision to these auditing standards, was circulated to the FAEC membership for
    comment in early October 2008.

Mr. Grover is also a member of the Government Performance and Accountability Committee of
the American Institute of Certified Public Accountants. The mission of this Committee is to
(1) promote greater government accountability and integrity of government operations,
information and information systems; (2) promote and encourage increased participation and
involvement by Certified Public Accountants (CPA) in government within the Institute;
(3) enhance the professional image and value of CPAs in government; (4) provide advice and
counsel to the Institute on the needs of CPAs in government, and (5) serve as a conduit for
communications among CPAs in government, the Institute, and other professional
organizations. Furthermore, Mr. Grover serves as a co-chair of the Maryland Association of
Certified Public Accountants Members in Government Committee. Among other activities, the
Committee sponsored a day-long conference in April 2008 on government/not-for-profit
accounting and auditing issues.




             Treasury Office of Inspector General Semiannual Report – September 2008        32
            O THER OIG A CCOMPLISHMENTS AND A CTIVITY

OIG Bi-annual Continuing Professional Education Audit Conference

The Office of Audit held its bi-annual educational conference on August 4-8, 2008, at the
Washington Duke Inn in Durham, NC. Fifty-seven Treasury OIG audit staff attended along with
13 auditors from the DOL OIG. The conference provided 40 hours of technical auditing,
accounting, contract fraud, and managerial training to address staff career development needs
and to meet the continuing professional education requirements of Government Auditing
Standards. In addition to plenary sessions and classroom training, OIG luncheon speakers
covered a variety of topics such as ethics, pending legislative changes to the Inspector
General Act, equal employment opportunity and diversity, and information security.

Treasury OIG Participates in Special Olympics Law Enforcement Torch Run

On June 6, 2008, the Office of Investigations participated in the 23rd Annual Law Enforcement
Torch Run organized by the Special Olympics, District of Columbia. The annual project helps
unify the law enforcement community in a common goal and displays its commitment to the
community’s children and adults with intellectual disabilities. Proceeds from the event help fund
the Special Olympics Summer Games.

                      (End of Other OIG Accomplishments and Activity)




             Treasury Office of Inspector General Semiannual Report – September 2008         33
                                      S TATISTICAL S UMMARY


Summary of OIG Activity
For the 6 Months Ended September 30, 2008



                                                                                           Number or
     OIG Activity
                                                                                          Dollar Value
                                             Office of Counsel Activity
     Regulation and Legislation Reviews                                                             8
     Instances Where Information was Refused                                                        0
                                             Office of Audit Activities
     Reports Issued (Audits and Evaluations)                                                       21
     Disputed Audit Recommendations                                                                 0
     Significant Revised Management Decisions                                                       0
     Management Decision in Which the IG Disagrees                                                  0
     Monetary Benefits (Audit)
         Questioned Costs                                                                          $0
         Funds Put to Better Use                                                                   $0
         Revenue Enhancements                                                                      $0
         Total Monetary Benefits                                                                   $0
                                        Office of Investigations Activities
     Allegations
         Total Allegations Received and Processed                                                1,548
     Cases – Investigations & Inquiries (Includes Joint Investigations)
         Opened in the Reporting Period*                                                           40
         Closed in the Reporting Period                                                            53
         Total Cases in Progress as of 9/30/2008                                                  151
     Criminal & Judicial Actions (Includes Joint Investigations)
         Cases Referred for Prosecution and/or Litigation                                          12
         Cases Accepted for Prosecution and/or Litigation                                           1
         Arrests                                                                                   13
         Indictments/Informations                                                                    3
         Convictions (By Trial and Plea)                                                             3
         Total Monetary Benefits (Fines/Restitution/Recoveries - Includes Joint
                                                                                             $382,052
         Investigations)
     Administrative Sanctions
         Total Adverse Personnel Actions Taken                                                     15
     Oversight Activities
         Prevention and Detection Briefings                                                        15
     *Includes 2 joint investigations initiated by another agency prior to Treasury OIG
     involvement.




               Treasury Office of Inspector General Semiannual Report – September 2008                   34
                               S TATISTICAL S UMMARY


Significant Unimplemented Recommendations
For Reports Issued Prior to October 1, 2007

 Number       Date   Report Title and Recommendation Summary

OIG-05-032    3/05   Terrorist Financing/Money Laundering: Office of Terrorist Financing
                     and Financial Crimes Needs to Refine Measures for Its Performance Budget and
                     Implement a Data Collection and Reporting System
                     The Assistant Secretary for Terrorist Financing should ensure that the Office of
                     Terrorist Financing and Financial Crimes implements the recently proposed
                     performance measures, adjusted as appropriate based on planned discussions
                     with OMB, and include the measures in the Department’s fiscal year 2006
                     budget submission. (1 recommendation)


OIG-06-010    12/05 Bill and Coin Manufacturing: The Bureau of Engraving and Printing
                    Should Ensure That Its Currency Billing Rates Include All Costs and That
                    Excess Working Capital Is Deposited in the General Fund
                    BEP should ensure that currency billing rates consider the full cost of operations,
                    including imputed costs such as the imputed cost of employee benefits paid by
                    the Office of Personnel Management. To the extent that the currency rates result
                    in excess monies to the BEP revolving fund, they should be deposited as
                    miscellaneous receipts to the Treasury general funds. (1 recommendation)

                     Because this recommendation involves a policy issue with governmentwide
                     implications, the Department referred the matter to OMB. Resolution is pending.


OIG-06-030    5/06   Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to
                     Better Analyze Bank Secrecy Act Data but Challenges Remain
                     FinCEN should enhance the current FinCEN database system or acquire a new
                     system. An improved system should provide for complete and accurate
                     information on the case type, status, resources, and time expended in
                     performing the analysis. This system should also have the proper security
                     controls to maintain integrity of the data. (1 recommendation)


OIG-CA-07-003 11/06 Information Technology: Evaluation of Treasury's Compliance with OMB
                     M-06-016
                     Due to the sensitive nature of the finding and recommendation, we designated
                     the report Limited Official Use. One recommendation in the report has not been
                     implemented.


OIG-07-029    2/07   Management Letter for the Fiscal Year 2006 Audit of the Department of the
                     Treasury’s Financial Statements
                     The Department should: (1) assess and address financial management human
                     capital needs, (2) require all Treasury component entities to prepare their
                     financial statement in accordance with federal generally accepted accounting
                     principles, (3) improve quality control review procedures over financial data,


             Treasury Office of Inspector General Semiannual Report – September 2008                  35
                               S TATISTICAL S UMMARY

                      (4) improve Treasury’s A-123 process, (5) develop a disaster recovery plan for
                      TIER and CFO Vision financial systems, and (6) establish a functionality in TIER
                      that will automatically invoke a session timeout after an extended period of time.
                      (6 recommendations)


OIG-07-048     9/07   Foreign Assets Control: Actions Have Been Taken to Better Ensure
                      Financial Institution Compliance With OFAC Sanction Programs, But Their
                      Effectiveness Cannot Yet Be Determined
                      The OFAC Director should determine whether MOUs should be established with
                      self-regulatory organizations and the IRS for sharing information on financial
                      institutions for which they have OFAC oversight responsibility.
                      (1 recommendation)


This list of OIG audit reports with unimplemented recommendations is based on information in
Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials. We also considered the results of the most recent financial audits,
which include follow-up on matters reported in prior financial audits.



Summary of Instances Where Information Was Refused
April 1, 2008, through September 30, 2008

There were no such instances during this period.



Listing of Audit and Evaluation Reports Issued
April 1, 2008, through September 30, 2008

Financial Audits and Attestation Engagements

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Administrative Resource Center for the Period of July 1, 2007 to June 30, 2008, OIG-08-
042, 9/18/2008

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Federal Investment Branch for the Period of August 1, 2007 to July 31, 2008, OIG-08-
045, 9/24/2008

Information Technology Audits and Evaluations

Information Technology: Network Security at the Office of the Comptroller of the Currency Needs
Improvement, OIG-08-035, 6/3/2008

Information Technology: Fiscal Year 2008 Evaluation of Treasury’s FISMA Implementation for Its Non-
IRS Intelligence Systems, OIG-CA-08-009, 8/1/2008




              Treasury Office of Inspector General Semiannual Report – September 2008                36
                                S TATISTICAL S UMMARY

Information Technology: Treasury Successfully Demonstrated its TCS Disaster Recovery Capability,
OIG-CA-08-010, 8/12/2008

Information Technology: BEP BEPMIS Disaster Recovery Exercise Was Successful, OIG-CA-08-011,
9/15/2008

Information Technology: Fiscal Year 2008 Evaluation of Treasury's FISMA Implementation for its Non-
IRS Non-Intelligence National Security Systems, OIG-CA-08-012, 9/26/2008

Information Technology: Federal Information Security Management Act Fiscal Year 2008 Performance
Audit, OIG-08-046, 9/26/2008

Performance Audits

Terrorist Financing/Money Laundering: Responsibility for Bank Secrecy Act Is Spread Across Many
Organizations, OIG-08-030, 4/9/2008

Foreign Investments: Review of Treasury's Failure to Provide Congress Required Quadrennial Reports in
1998 and 2002 on Foreign Acquisitions and Industrial Espionage Activity Involving U.S. Critical
Technology Companies, OIG-08-031, 4/21/2008

Safety and Soundness: Material Loss Review of NetBank, FSB, OIG-08-032, 4/23/2008

Bank Secrecy Act: FinCEN Has Taken Action to Improve Its Program to Register Money Services
Businesses (Corrective Action Verification on OIG-05-050), OIG-08-033, 4/25/2008

Terrorist Financing/Money Laundering: OTS Examinations of Thrifts for Bank Secrecy Act and Patriot
Act Compliance Were Often Limited, OIG-08-034, 5/15/2008

Bill and Coin Manufacturing: BEP Needs to Enforce and Strengthen Controls at Its Eastern Currency
Facility to Prevent and Detect Employee Theft, OIG-08-036, 6/21/2008

General Management: Office of Management Needs to Improve Its Monitoring of the Department's
Audit Follow-Up Process, OIG-08-037, 6/23/2008

Accessibility of Financial Services: OCC Is Appropriately Using HMDA Data in its Risk Assessment
Process to Identify Possible Discriminatory Lending Practices, OIG-08-038, 7/21/2008

Tax Administration: Review of the Tax Guidance Process, Including IRS Notice 2007-17, OIG-08-039,
7/22/2008

Capital Investments: Treasury Foreign Intelligence Network Project Experienced Delays and Project
Management Weaknesses, OIG-08-040, 7/25/2008

Financial Management: Controls Over Treasury's Working Capital Fund Expense Process Need
Improvement, OIG-08-041, 7/28/08

Private Collection Agencies: Pioneer Credit Recovery, Inc., Needs to Improve Compliance with FMS's
Debt Compromise Requirements, OIG-08-043, 9/26/08

Private Collection Agencies: Linebarger, Goggan, Blair & Sampson, LLP, Needs to Improve Compliance
with FMS's Debt Compromise Requirements, OIG-08-044, 9/26/08


              Treasury Office of Inspector General Semiannual Report – September 2008                37
                             S TATISTICAL S UMMARY

Audit Reports Issued with Questioned Costs
April 1, 2008, through September 30, 2008

At the beginning of the period, there were no audit reports from prior periods pending a
management decision with questioned costs. There were also no audit reports issued during
this period with questioned costs.



Audit Reports Issued With Recommendations That Funds Be Put to Better Use
April 1, 2008, through September 30, 2008

At the beginning of the period, there were no audit reports from prior periods pending a
management decision on recommendations that funds be put to better use. There were also
no audit reports issued during this period with recommendations that funds be put to better
use.



Previously Issued Audit Reports Pending Management Decisions (Over 6 Months)
as of September 30, 2008

There were no audit reports issued before this semiannual reporting period that are pending a
management decision.



Significant Revised Management Decisions
April 1, 2008, through September 30, 2008

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2008, through September 30, 2008

There were no management decisions this period with which the IG was in disagreement.

                                 (End of Statistical Summary)




             Treasury Office of Inspector General Semiannual Report – September 2008          38
          R EFERENCES T O T HE I NSPECTOR G ENERAL A CT




                                                  Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 34
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       10-29
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    10-29
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      35-36
                     semi-annual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           34
Section   5(a)(5)    Summary of instances where information was refused                    36
Section   5(a)(6)    List of audit reports                                                36-37
Section   5(a)(7)    Summary of significant reports                                       10-29
Section   5(a)(8)    Audit Reports with questioned costs                                   38
Section   5(a)(9)    Recommendations that funds be put to better use                       38
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           38
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    38
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           38
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                         N/A
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




          Treasury Office of Inspector General Semiannual Report – September 2008                 39
                                   A BBREVIATIONS


AIG                 American International Group
BEP                 Bureau of Engraving and Printing
BPD                 Bureau of Public Debt
BSA                 Bank Secrecy Act
CFO Act             Chief Financial Officers Act
CPA                 Certified Public Accountant
DMS                 Debt Management Services
DO                  Departmental Offices
DOL                 Department of Labor
EESA                Emergency Economic Stabilization Act
FAEC                Federal Audit Executive Council
FinCEN              Financial Crimes Enforcement Network
FISMA               Federal Information Security Management Act of 2002
FMS                 Financial Management Service
GAO                 Government Accountability Office
GMRA                Government Management Reform Act of 1994
HMDA                Home Mortgage Disclosure Act
IRS                 Internal Revenue Service
IPA                 Independent Public Accountant
JAMES               Joint Audit Management Enterprise System
MLR                 material loss review
MOU                 memoranda of understanding
MSB                 money services business
OIG                 Office of Inspector General
OCC                 Office the Comptroller of the Currency
OFAC                Office of Foreign Assets Control
OFM                 Office of Financial Management
OMB                 Office of Management and Budget
OTP                 Office of Tax Policy
OTS                 Office Thrift Supervision
PCA                 Private Collection Agency
PCIE/ECIE           President’s Council on Integrity and Efficiency and Executive Council on
                        Integrity and Efficiency
RRB                 Railroad Retirement Board
SSA                 Social Security Administration
TARP                Troubled Assets Relief Program
TCS                 Treasury Communications System
TFI                 Office of Terrorism and Financial Intelligence
TFIN                Treasury Foreign Intelligence Network
TIGTA               Treasury Inspector General for Tax Administration
TTB                 Alcohol and Tobacco Tax and Trade Bureau
WCF                 Working Capital Fund




            Treasury Office of Inspector General Semiannual Report – September 2008        40
Little Known Money Facts
DID YOU KNOW?

   •   The origin of the "$" sign has been variously
       accounted for. Perhaps the most widely accepted
       explanation is that it is the result of the evolution of
       the Mexican or Spanish "P's" for pesos, or piastres,
       or pieces of eight. This theory, derived from a study
       of old manuscripts, explains that the "S," gradually
       came to be written over the "P," developing a close
       equivalent to the"$" mark. It was widely used before
       the adoption of the United States dollar in 1785.

   •   Have you ever wondered how many times you could
       fold a piece of currency before it would tear? About
       4,000 double folds (first forward and then backwards)
       are required before a note will tear.

   •   If you had 10 billion $1 notes and spent one every
       second of every day, it would require 317 years for
       you to go broke.

   •   During fiscal year 2007, the Bureau of Engraving and Printing produced
       approximately 38 million notes a day with a face value of approximately $750
       million.

   •   The largest note ever printed by the Bureau of Engraving and Printing was the
       $100,000 Gold Certificate, Series 1934. These notes were printed from
       December 18, 1934, through January 9, 1935, and were issued by the Treasurer
       of the United States to Federal Reserve Banks only against an equal amount of
       gold bullion held by the Treasury. These notes were used for transactions
       between Federal Reserve Banks and were not circulated among the general
       public.

   •   The 100 dollar note has been the largest denomination of currency in circulation
       since 1969.

   •   Five African Americans have had their signatures on currency. The four African
       American men whose signatures appeared on the currency were Blanche K.
       Bruce, Judson W. Lyons, William T. Vernon and James C. Napier. These men
       served as Registers of the Treasury. The fifth African American whose signature
       appeared on currency was Azie Taylor Morton. Ms. Morton was the 36th
       Treasurer of the United States. She served from September 12, 1977, to
       January 20, 1981.


Source: Bureau of Engraving and Printing Website
 contact us



Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650;
Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Eastern Field Audit Office
                                   Treasury OIG Hotline
408 Atlantic Avenue, Room 330      Call Toll Free: 1.800.359.3898
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax (617) 223-8651                 Treasury OIG Web Page

                                   OIG reports and other information are now
                                   available via the Internet. The address is
                                   http://www.treas.gov/inspector-general
